National Aeronautics and
Space Administration

Office of Inspector General
Washington, DC 20546-0001

                                         March 27, 2009

TO:            Associate Administrator, Science Mission Directorate
               Assistant Administrator, Office of Infrastructure
               Director, Ames Research Center
               Director, Dryden Flight Research Center

FROM:          Assistant Inspector General for Auditing

SUBJECT:       Final Memorandum on Audit of the Stratospheric Observatory for Infrared
               Astronomy (SOFIA) Program Management Effectiveness (Report
               No. IG-09-013; Assignment No. A-08-011-00)


NASA’s Stratospheric Observatory for Infrared Astronomy (SOFIA), an airborne
observatory within the airframe of a Boeing 747SP, will study the universe in the infrared
spectrum. NASA began SOFIA Program formulation in 1991, initiated development in
1996, and the Program has since experienced cost overruns and schedule delays. Costs
have exceeded 217 percent of the initial cost estimate and limited scientific operations are
approximately 10 years behind the original schedule. As of January 2009, the SOFIA
Program’s life-cycle cost estimates were approximately $1.1 billion for development and
implementation and approximately $3.4 billion including a 20-year operational lifespan.
We initiated this audit in light of the Program’s historical management issues and aircraft
maintenance concerns.

The overall objective of this audit was to determine whether NASA was effectively
managing the SOFIA Program to accomplish the near- and long-term objectives while
meeting established milestones and controlling costs. Specifically, we determined
whether SOFIA Program management had effectively planned for the long-term
servicing of the aircraft, implemented effective controls to limit further cost growth and
schedule delays, and monitored contractor performance. We also reviewed internal
controls as they related to the objectives. See Enclosure 1 for details on the audit’s scope
and methodology.

Executive Summary
SOFIA Program management had made significant progress in identifying and
addressing past problems associated with management structure, schedule, and quality
assurance. Program management had established adequate risk assessment and quality
assurance processes to oversee contractor performance with respect to the
accomplishment of near-term goals. However, we found that Program management had
not yet completed actions required to address the long-term servicing needs of the
aircraft, had not requested an independent cost estimate (ICE), and lacked an effective
                                                                                             2



cost control process to evaluate the Program’s cost efficiency in meeting schedule
milestones. As a result, Program management cannot accurately assess the effects of
long-term aircraft servicing and maintenance on the Program’s life-cycle costs,
demonstrate cost efficiencies, or provide earned value for completed contractor work.

SOFIA Program management had initiated some actions to address the long-term
objectives related to maintaining and providing spare parts for the 30-year-old SOFIA
aircraft. Program management drafted logistics and maintenance plans, and the Director,
Dryden Flight Research Center, submitted a request to the Assistant Administrator for
Infrastructure to obtain the two Shuttle Carrier Aircraft following the retirement of the
Space Shuttle Program. However, as of January 30, 2009, Program management had
neither finalized the logistics and maintenance plans nor obtained an agreement for the
transfer of the Shuttle Carrier Aircraft. Settlement of these actions should provide
SOFIA Program management the information needed to better estimate the cost for
aircraft spare parts and maintenance requirements. Although the transfer of the Shuttle
Carrier Aircraft could save the Program approximately $20 million in spare parts costs,
the uncertainty over the exact retirement date of the Space Shuttle Program demands
consideration and development of alternative spare parts plans. Similarly, completion of
these plans should help in the development of a baseline from which management can
monitor long-term cost and schedule performance.

SOFIA Program management did not have an effective cost control process because its
monitoring process did not integrate cost with schedule. The Program’s process
monitored cost and schedule separately, and the process was ineffective because it
measured cost performance against a cost baseline that was unreliable as reflected by an
ever-increasing cost trend. Further, there was no evidence of an independent cost
estimate being performed to validate the Program’s cost estimates.

SOFIA Program management’s cost and schedule monitoring process did not function in
accordance with American National Standards Institute/Electronic Industries Alliance -
748 (ANSI/EIA-748), “Standard for Earned Value Management Systems,” June 1998, 1 as
required by NASA Procedural Requirements (NPR) 7120.5D, “NASA Space Flight
Program and Project Management Requirements,” March 6, 2007. The process also did
not comply with the SOFIA Program Plan, July 10, 2007, which states that Earned Value
Management (EVM) would be the primary tool employed to control and monitor cost
performance of the SOFIA Program. Data for each work package in the process that
Program management instituted pertain strictly to schedule and did not include cost
estimates; therefore, Program management cannot quantify earned value and cost
performance by work package.

SOFIA Program management did not obtain an ICE to validate SOFIA Program cost
estimates—for total life-cycle cost or detailed work package cost estimates. An ICE can
provide reasonable assurance that the cost baseline is reliable for use in an Earned Value


1
    ANSI/EIA-748-B was published in June 2007.
                                                                                                              3



Management System (EVMS) to measure cost performance. NPR 7120.5D requires that
an ICE be performed following a program or project’s formulation phase. The SOFIA
Program is in the implementation phase and will continue in this phase until reaching Full
Operational Capability in 2014. An objective ICE improves reliability of program cost
estimates by serving as an independent validation of them. The SOFIA Program has a
history of increasing life-cycle cost estimates. An ICE would provide NASA
management with a benchmark to assess the reasonableness of the Program’s cost
estimates. Reliable cost estimates are also vital to the proper functioning of an EVMS.

The Program has not implemented EVMS nor conducted an ICE because SOFIA
Program management has emphasized meeting near-term schedule milestones and has
chosen not to expend resources in those other areas. As a result, Program management
did not have an adequate EVMS to provide reliable earned value and early identification
of performance trends and variances from the management plan.

We also found that cost control measures were lacking at the contract level. SOFIA
Program management did not incorporate “cost control” as a performance evaluation
factor in two cost-plus-award-fee (CPAF) 2 contracts. The NASA supplement to the
Federal Acquisition Regulation (FAR), NASA FAR Supplement (NFS) Version 04.0,
November 1, 2004, requires that CPAF contracts include a cost control evaluation factor
worth no less than 25 percent of the total weighted evaluation factors. The SOFIA
Program’s contracting officer stated that cost control factors were included as sub-criteria
of the Business Management evaluation factor. We evaluated those sub-criteria in the
contracts’ Award Fee Determination Plans and NASA’s award fee cover letters to the
contractors. Our evaluation of the cost control sub-criteria contained within the Business
Management evaluation factor showed that the sub-criteria related to cost control did not
add up to the 25 percent weight requirement. In addition, the award fee cover letters to
the contractors did not address cost control performance, as required by NFS.

We concluded that SOFIA Program management deemphasized the importance of cost
control, which negated its effectiveness, did not incentivize the contractors to control
costs, and emphasized meeting near-term schedule milestones without adequate regard
for controlling cost. Consequently, NASA expended $233,600 of Government funds for
award fees that did not meet NFS requirements and, therefore, have been made without
appropriate basis. Further, if Program management does not change the evaluation
criteria in the Award Fee Determination Plans to meet the requirement that cost control
accounts for no less than 25 percent of the total weighted evaluation factors, future award
fees could potentially be awarded without the appropriate emphasis on cost control.

Recommendations. In our February 25, 2009, draft of this memorandum, we
recommended that SOFIA Program management complete the actions required to address

2
    Defined by FAR 16.305, “Cost-plus-award-fee contracts,” as a cost-reimbursement contract that provides
    for a fee consisting of (a) a base amount (which may be zero) fixed at inception of the contract and (b) an
    award amount, based on a judgmental evaluation by the Government, sufficient to provide motivation for
    excellence in contract performance.
                                                                                                                   4



long-term aircraft servicing and spare parts concerns, which includes finalizing logistics
and maintenance plans, the Shuttle Carrier Aircraft transfer agreement, and alternative
spare parts plans based on various projected Space Shuttle Program retirement dates to
estimate the impact on the Program budget. Program management should also fully
implement a program level EVMS that complies with ANSI/EIA-748 guidelines, which
includes developing cost estimates by work packages; using a third party, ICE review to
validate those estimates; and incorporating the estimates into the EVMS. In addition,
SOFIA Program management should work with the contracting officer to modify the
existing Award Fee Determination Plans for all SOFIA CPAF contracts and establish a
cost control evaluation factor that is no less than 25 percent of the total weighted
evaluation factors. Implementing these recommendations will provide Program
management with the tools required for long-term success, bring award fee contracts into
compliance with NFS, and prevent NASA from paying potentially unwarranted award
fees.

Management’s Comments and Auditor Response. In commenting on the draft of this
memorandum (see Enclosure 2), NASA management requested clarification on two
issues and generally concurred with the recommendations; we consider all but two
recommendations resolved.

The Associate Administrator for the Science Mission Directorate requested that we revise
the 2008 dollar projection in Table 1 to more accurately compare cost growth with the
1997, 2000, and 2003 projections. In addition, the Associate Administrator stated that
the 2008 dollar figure in the draft memorandum reflected full-cost accounting 3 and the
projections for prior years did not. We agreed to revise the 2008 projection and
incorporated the suggested change, which we calculated to be $840 million, to provide a
more accurate comparison between the milestone represented in the 2008 projection and
the milestone represented in the prior year projections and included a footnote to clarify
the difference. However, based on the information contained in the NASA Fiscal Year
(FY) 2009 Budget Estimate, we disagreed that the 2008 dollar projection in our draft
memorandum was full cost. After further discussions with Science Mission Directorate
personnel and comparison with current budget estimates, it was agreed that the draft
memorandum 2008 dollar projection was not full cost.

NASA management also stated that the draft of this memorandum implied that the
SOFIA Program overpaid the award fee by $233,600 on the two CPAF contracts and
asked for clarification. There was no implication of an overpayment intended. However,
cost control accounted for less than 25 percent of the total weighted evaluation factors in
the Award Fee Determination Plans. Therefore, we calculated that $233,600 of the
$1,377,078 total award fee paid was not in compliance with NFS requirements. Had cost
control accounted for the required 25 percent of the total weighted evaluation factors, the
contractors could have earned more or less than the actual award fee paid.


3
    The full cost of a project is the sum of all direct costs, indirect costs (including civil service personnel
    costs), service costs, and Center Management and Operations costs associated with the project.
                                                                                         5



The Associate Administrator concurred with the intent of our recommendation to
determine the disposition of the Shuttle Carrier Aircraft (Recommendation 1) and
concurred with our recommendations to complete the maintenance and logistics plans
(Recommendation 2.a), complete an ICE (Recommendation 3), and modify the CPAF
contracts to comply with NFS requirements (Recommendation 4.a). The
recommendations are resolved and will be closed upon completion and verification of
management’s corrective action.

The Associate Administrator’s comments did not specifically address our
recommendation to ensure that contractor cost control performance is explicitly
communicated in future contractor performance evaluations (Recommendation 4.b). In
addition, he partially concurred with Recommendation 2.b, to fully implement EVMS,
stating his belief that the program is in compliance with NPR 7120.5D and welcoming
further discussion to better understand our concerns and discuss implementation. We
maintain that the system in place for the SOFIA Program is not in compliance with the
NPR or the SOFIA Program Plan. Specifically, while the SOFIA Program Plan cites the
ANSI/EIA-748 EVM principle of integrating cost and schedule at the work package
level, the system in place only monitors cost at the Program’s top level without
integrating cost and schedule at the work package level.

We have begun discussions with Science Mission Directorate personnel and made a
commitment to work with SOFIA Program management to further discuss the
implementation of an effective EVMS that complies with NPR 7120.5D and the SOFIA
Program Plan. We request that the Associate Administrator for the Science Mission
Directorate provide additional comments on Recommendations 2.b and 4.b in response to
our final memorandum by April 30, 2009.

Background
SOFIA is an airborne observatory that will study the universe in the infrared spectrum. It
is a continuation of NASA’s Kuiper Airborne Observatory, which was a modified C-141
aircraft with a 36-inch reflecting telescope that flew from 1974 to 1995. Designed within
the airframe of a Boeing 747SP (see Figure 1), SOFIA contains an internally mounted
2.5-meter telescope (see Figure 2) that will be exposed to the night sky via a specially
designed cavity door system. The observatory is designed to serve as a laboratory for
developing and testing astronomical instrumentation and detector technology. It is
intended to enable a wide variety of astronomical science observations not possible from
other Earth- and space-based observatories.
                                                                                                  6



                           Figure 1. SOFIA Flying Observatory




    Source: NASA Dryden Flight Research Center Photo Collection, ED08-0067-19, March 10, 2008.

            Figure 2. SOFIA Airborne Observatory’s 2.5-Meter Telescope




  Source: NASA Dryden Flight Research Center Photo Collection, ED08-0296-14, November 12, 2008.

The advantages of SOFIA over other observatories are its mobility and flexibility.
SOFIA can be flown from and to any part of the globe to achieve the optimal viewing
position. It is designed to fly at altitudes above 40,000 feet—above the water vapor in
the lower atmosphere that blocks light in the sub-millimeter and far-infrared spectrum
                                                                                                       7



from being observed by ground-based telescope systems. SOFIA is designed to
incorporate and test a wide range of astronomical instruments, such as cameras and
spectrographs, and change them as required by the mission. It can also incorporate
instrument improvements and upgrades, thus allowing it to react quickly to new
technology improvements.

The SOFIA Program formulation started in 1991; development was initiated in December
1996 by a cooperative agreement between NASA and the Deutsches Zentrum für Luft-
und Raumfahrt (DLR), German Aerospace Center. Under the terms of the cooperative
agreement, DLR would receive 20 percent of the observation time after the observatory
goes into full operation. In return, DLR provided the telescope assembly, aircraft engine
upgrades, aircraft repainting, and two science instruments. When SOFIA is in full
operation, DLR would provide mission support staff, fuel costs for German flights, and
share 20 percent of the operation costs. The most recent estimate of DLR’s fiscal
contribution was approximately $323 million. 4

Events Leading to a Change in Program Management. In August 1995, the Associate
Administrator for Space Science 5 determined that SOFIA’s procurement should be
privatized because privatization would offer the science community the same service that
NASA could provide at lower costs or better service at the same life-cycle cost. Further,
he determined that it was in NASA’s best interest to select a single private sector entity to
develop and operate SOFIA. The Program’s initial development cost was estimated at
$265 million. In 1996, NASA awarded a prime contract to University Space Research
Association for $311 million, which included $167 million to develop the SOFIA aircraft.
University Space Research Association was responsible for the entire management,
development, implementation, and operation of the SOFIA aircraft, and subcontracted
L-3 Communications Corporation (L-3) for aircraft modification and United Airlines for
aircraft maintenance. The airborne observatory’s initial estimated delivery date was
2001.

As early as 1998, the Program began to experience schedule delays. Cost overruns were
evident as early as 2000. In September 2003, United Airlines declared bankruptcy and
divested itself from the Program. L-3 assumed aircraft maintenance responsibilities by
subcontracting this effort to Leading Edge. In November 2004, an Independent Cost,
Schedule, and Management Review found that the Program’s organizational structure
was “not conducive to an effective flight mission integration process.” Specifically, the
Review found that, organizationally, NASA management was “hands off” and only
maintained an oversight function. There were overlaps among NASA, prime contractor,
and subcontractor responsibilities with no clear lines of authority. The review also found
that the systems engineering function was not cohesive. Distribution of cost, schedule,
and technical expertise among the various organizations made management of the SOFIA


4
    Estimate made by the SOFIA Option Review Team on April 25, 2006.
5
    In NASA’s 2005 reorganization, Space Science and Earth Science Enterprises combined into the Science
    Mission Directorate.
                                                                                                           8



Program difficult. In addition, the Review reported technical problems with the telescope
assembly and continuing problems with the cavity door. The reviewers also questioned
the reliability of the Program’s cost estimate, specifically concerning the preparation of
the SOFIA aircraft for an Operational Readiness Review by January 2005.

In February 2005, NASA issued a contract stop work order due to aircraft maintenance
mishaps and quality assurance issues. Work resumed on the aircraft after L-3 replaced
the lower tier subcontractor responsible for aircraft maintenance and NASA assumed
oversight of the quality assurance process.

In February 2006, NASA withheld Program funding for FY 2007 and forward until an
independent study was performed to assess the Program’s status and options for
continuation. A SOFIA Option Review Team (SORT) was formed and presented its
findings and recommendations to NASA’s Science Mission Directorate in April 2006. In
June 2006, NASA reinstated the Program with a significantly reorganized Program
management structure. 6

Program Management Changes and Improvements. As a result of the SORT
recommendations, NASA took control of management for the SOFIA Program, assigning
that function to Dryden Flight Research Center (Dryden); reorganized the Program into
two major projects—Platform (Aircraft and Telescope Assembly) and Science and
Operations. The projects were assigned with respect to Center technical expertise—the
Platform Project to Dryden and the Science and Operations Project to Ames Research
Center. Dryden assumed responsibility for maintaining the aircraft and overseeing the
quality assurance and systems engineering functions.

In May 2006, NASA decided to certify the aircraft using the NASA research aircraft
certification process; thus, NASA no longer relied on the contractor to maintain and
certify the aircraft to meet commercial airworthiness requirements. The Program
renegotiated previous contracts and subcontracts and converted them into separate
support contracts. This maximized and improved NASA’s control of the Program’s
direction, schedule, and performance.

SOFIA Program management plans to demonstrate SOFIA’s potential before full
operation, which is scheduled to begin in 2014. Demonstrations are planned to show
SOFIA’s science capabilities progressively in two stages—initiation of science flights in
August 2009 and Limited Operational Capability in August 2011. Initiation of science
flights will demonstrate that the aircraft is safe to operate with the door open and that the
telescope is able to track objects. The initial flights are intended to evaluate the telescope
and the instrument observatory capabilities. Flights will have limited duration and fly
within the vicinity of Dryden.

6
    After reviewing the SORT report, the NASA Administrator announced a plan to continue SOFIA, with
    some significant management changes. He indicated that NASA’s Program Management Council
    concluded that no significant technical challenges remained. However, he stated that a team needed to be
    in place having a greater level of experience with research aircraft. As a result, the Dryden Flight
    Research Center would become lead for development and flight tests of SOFIA.
                                                                                                         9



After these initial science flights, Program management plans to increase flight duration
and frequency over time to demonstrate the capability of the observatory and its scientific
value. In 2011, upon reaching the Limited Operational Capability milestone, the
Program will begin science research within the full flight envelope and full range from
Palmdale, 7 operate with all subsystems fully functional, and initiate observations
interleaved with progressive telescope performance evaluations and tuning
improvements. Upon reaching Full Operational Capability in 2014, SOFIA Program
management plans for 960 observing hours a year for 20 years.

Risk Management and Quality Assurance Processes Were Adequate
Our review of the Program’s internal controls found that Program management had
established adequate quality assurance processes in overseeing contract performance and
a risk assessment process that complied with NPR 8000.4, “Risk Management Procedural
Requirements,” April 25, 2002. Program management effectively recognized, mitigated,
and implemented strategies to minimize disruptions to the Platform Project schedule. For
example, Government quality assurance personnel provided adequate oversight of the
contractor’s performance in identifying manufacturing defects associated with the upper
rigid door insulation panels. In addition, Program management had an adequate process
in place to assess the risk of postponing the installation of the upper rigid door insulation
panels. The proposed strategy was supported by sufficient technical evaluations, and
decisions were consistent with the results of those evaluations.

Long-Term Planning and Program Performance Monitoring Could Be
 Improved
NASA management had taken necessary initiatives to correct prior SOFIA Program
management issues. However, SOFIA Program management needs to complete actions
essential for the long-term viability of the aircraft and improve cost controls by fully
implementing EVMS at the program and project level. To support full EVMS
implementation, SOFIA Program management needs to estimate cost by work package
and validate these estimates using an independent cost estimate.

Aircraft Long-Term Servicing. We found that SOFIA Program management had taken
some proactive steps toward securing spare parts for SOFIA. In September 2008,
Program management purchased an inoperable Boeing 747SP aircraft from Transatlantic
International Airline for $1.25 million and was in the process of dismantling the plane for
spare parts. In addition, in January 2009, Dryden’s Director submitted an internal NASA
request to obtain the two Shuttle Carrier Aircraft after Space Shuttle Program retirement.
The two Shuttle Carrier Aircraft are Boeing 747-100 model aircraft, similar to the Boeing
747SP and could be cannibalized for their spare parts.


7
    The SOFIA aircraft was moved to the Los Angeles/Palmdale Regional Airport at Palmdale, California,
    26 miles south of Dryden, in January 2008.
                                                                                         10



Program management estimated that obtaining the eight Shuttle Carrier Aircraft engines
could result in lowering SOFIA’s procurement costs by $16 million (estimated at
$2 million for each engine). Further, transferring the two Shuttle Carrier Aircraft would
preclude the expenditure of about $2.5 million in acquisition costs for another two
aircraft (based on the $1.25 million spent to acquire the inoperable aircraft). Program
management also estimated that the three aircraft (the inoperable aircraft and the two
Shuttle Carrier Aircraft) would provide between 50 percent and 75 percent of the critical
parts required (an estimated value of $4 million to $5 million). Conservatively, by
acquiring the Shuttle Carrier Aircraft, the Program could potentially avoid spending
$20 million to obtain similar spare parts.

NASA and SOFIA Program management need to complete the actions initiated to
address the long-term aircraft servicing concerns. As of January 30, 2009, the request
from the Dryden Director to the Assistant Administrator for Infrastructure to transfer the
Shuttle Carrier Aircraft had not been approved. Although a timely agreement would
provide Program management with information needed to plan for acquisition
requirements and potentially make funding available for other Program requirements, as
of January 2009, Congress and the new Administration were contemplating various space
policy options that could delay the Space Shuttle Program’s retirement date by up to
5 years, from 2010 to 2015. Program management should develop alternative plans for
supplying SOFIA with the spare parts needed.

Although the Program had a team in place to determine aircraft maintenance and spare
parts requirements, as of January 30, 2009, there was no written draft of the maintenance
plan and the draft of the integrated logistics plan was not sufficiently developed for our
review or evaluation. This is a concern because Program management identified that the
spare parts for this type of aircraft will be scarce in the future. The Boeing 747SP is a
special performance version of the Boeing 747-100 with a limited production of only 45
aircraft. As time passes, the other Boeing 747SP aircraft will deteriorate and, therefore,
the parts unique to the 747SP may not be usable as replacements or spares. This may
have a severe impact on the serviceability of the SOFIA aircraft as it approaches the latter
part of its 20-year operational life cycle.

NASA Policy Directive (NPD) 7500.1B, “Program and Project Logistics Policy,”
September 12, 1997, requires that programs apply the integrated logistics support
engineering and management concepts and techniques to all phases of the program or
project cycle to ensure the new or upgraded system will be economically supported
throughout its planned life cycle. NPR 7120.5D requires that, during Phase D
(implementation), the Project Manager and the project team establish and maintain an
integrated logistics support capability, including spares, ground support equipment, and
system maintenance and operating procedures, in accordance with the project’s logistics
plan. As of January 30, 2009, Program management had not completed the integrated
logistics plan. Program management expects to complete the maintenance plan, which
will identify inspection and maintenance requirements for the aircraft, by May 2009.
Finalizing these plans should provide documented spare parts and maintenance
                                                                                                         11



requirements and a basis for estimating requirements to ensure that there will be
sufficient funding in the Program’s budget to support these requirements.

Program Cost Control Monitoring. SOFIA Program management did not have an
effective cost control process because its monitoring system did not integrate cost with
schedule. Program management’s process of monitoring cost and schedule separately
was ineffective because it was measuring cost performance against a cost baseline that
was unreliable as reflected by an ever-increasing cost trend. Further, there was no
evidence of an independent cost estimate being performed to validate the Program cost
estimates. Program management can improve cost and schedule monitoring by
estimating cost by work package, validating the Program cost estimates through an
independent cost estimate, and fully implementing an integrated EVMS as required by
NPR 7120.5D and the SOFIA Program Plan.

SOFIA Program management did not have a fully implemented EVMS that allowed for
integrating cost with schedule. When fully implemented, the EVMS compares the value
of work completed during a given period with the work scheduled to be completed for
that period, which is more than simply comparing budgeted costs to actual expenditures
and determining whether or not schedule milestones have been met. Therefore, an
accurate, valid, and current performance management baseline is needed to perform
useful EVM analyses, as discussed by the Government Accountability Office. 8
Accordingly, a planned value (i.e., budget) is needed for each scheduled element of work.
As these elements of work are completed, their target planned values are “earned.” As
work progress is quantified, the earned value becomes a metric against which to measure
both what was spent to perform the work and what was scheduled to have been
accomplished, allowing the system to isolate and quantify schedule variance and cost
variance separately. 9 These variances can inform management as to whether the program
is progressing on schedule and within budget, allowing the program manager to address
potential cost overruns and schedule delays prior to expending the entire budget.

Instead of employing a fully implemented EVMS, SOFIA Program management had
been monitoring cost performance by comparing actual costs against budgeted costs at
the Program level instead of the work package level. Schedule performance was
monitored separately by comparing completed milestones against those planned.
However, the Program’s total actual cost was not an indication of work progress, only an
indication of hours and money spent. Further, the SOFIA Program’s monitoring process
did not integrate cost with schedule that would enable identification of progress at the
work package level. Therefore, SOFIA Program management lacked the ability to
quantify cost and schedule variances at the work package level and identify signs of
potential cost and schedule problems.


8
    NASA: “Lack of Disciplined Cost-Estimating Processes Hinders Effective Program Management”
    GAO-04-642, May 2004), Appendix IV.
9
    American National Standards Institute/Electronic Industries Alliance ANSI/EIA-748-B, “Earned Value
    Management System.”
                                                                                                              12



Lack of Cost Detail for Full EVMS. SOFIA Program management had a system in
place similar to EVMS, but it lacked the cost estimates by work package needed to fully
implement the system and have it function as intended. SOFIA Program management
had a full-time EVMS subject matter expert assigned to the Program, used Microsoft
Project 10 to load schedule information by work package, and acquired Deltek Cobra
software 11 to collect data from Microsoft Project and generate a cost performance
schedule. However, Microsoft Project was loaded with schedule information only and,
therefore, was limited to monitoring only schedule performance. There was no estimated
cost by work package; therefore, the system cannot generate cost performance results and
facilitate variance analyses. The SOFIA Program’s performance monitoring process
conformed neither to the EVM principles nor to the SOFIA Program Plan.

NPR 7120.5D requires EVMS be implemented in compliance with ANSI/EIA-748 for
projects as well as contracts exceeding $20 million. ANSI/EIA-748 guidelines for
planning, scheduling, and budgeting include identifying the authorized work in discrete
work packages and establishing budgets for this work in terms of dollars, hours, or other
measurable units. The SOFIA Program Plan, Section 3.1, “Technical, Schedule, and Cost
Control Plan,” July 10, 2007, states that EVMS would be the primary tool employed to
evaluate cost performance of the Program. The Plan called for control accounts to be
established based on the work breakdown structure and management structure of the
Program. A control account manager would be responsible for establishing the
Integrated Master Schedule, which in combination forms the program’s performance
measurement baseline; the latter was typically referred to as planned value, or budgeted
cost of work scheduled.

SOFIA Program management did not have a fully implemented EVMS because, in part,
Program management did not estimate cost at the work package level. Program
management emphasized meeting near-term schedule milestones and questioned whether
committing resources to implement EVMS would be beneficial to the Program.
Specifically, according to SOFIA Program personnel, by the time EVMS could be fully
implemented, management anticipated that the Program would be late in the
implementation phase, when most of the technical issues should have been resolved.
However, SOFIA Program management did not conduct any formal study to evaluate the
costs and benefits associated with these EVMS implementation concerns.

NPR 7120.5D requires that EVMS be implemented during Phase C (implementation).
The Program is in the implementation phase, which is not scheduled to end until SOFIA
reaches Full Operational Capability, which is anticipated in 2014. Further, the Program
currently has expended approximately $639 million of the $1.1 billion budgeted for
formulation and implementation phases. There is still a significant portion of the budget

10
     Microsoft Project is a project management software program developed by the Microsoft Corporation. It
     is designed to assist project managers in developing plans, assigning resources to tasks, tracking progress,
     managing budgets and analyzing workloads.
11
     Deltek Cobra, developed by Deltek, Inc., is an enterprise system for managing project costs; measuring
     earned value; and analyzing budgets, actuals, and forecasts.
                                                                                                         13



remaining ($469 million) prior to achieving Full Operational Capability. In perspective,
the initial development estimate was $265 million to reach the Operational Readiness
Review, 12 which grew to $840 million to obtain Limited Operational Capability (see
Table 1 on page 14). In addition, NASA budgeted another $233 million to reach Full
Operational Capability. In light of the Program’s history of cost underestimation and the
lack of measurable earned value, the remaining estimated costs to attain Full Operational
Capability should be monitored in accordance with requirements to prevent further cost
growth or schedule delay.

Unreliable Total Cost as a Comparative Baseline. SOFIA Program management’s
cost monitoring process measured performance against total cost estimates. This is
ineffective because the SOFIA Program has a history of ever-increasing, unreliable life-
cycle cost estimates. A reliable cost baseline that is accurate, valid, and current is
required for EVMS to provide meaningful performance analyses. An ICE has the ability
to reconcile and validate SOFIA Program management’s cost estimates—by work
breakdown structure and for total life-cycle cost.

NPR 7120.5D states that the governing Program Management Council (PMC), which is
the Agency PMC for the SOFIA Program, has “the responsibility of periodically
evaluating the cost, schedule, risk, technical performance, and content of a program or
project under its purview.” One tool to support this evaluation is the ICE. The NPR
states that an ICE should be performed by the end of the formulation phase and
performed by an organization outside of the program office. The estimate would be
bound by the program scope (total life cycle through all phases), schedule, technical
content, risk, ground rules, and assumptions and be conducted with objectivity and the
preservation of the cost estimate integrity.

Validation of the program cost estimate by ICE is particularly important because the
SOFIA Program had a history of growing cost and schedule projections, as shown in
Table 1.




12
     Comparable to the Limited Operational Capability milestone, the Operational Readiness Review denoted
     the time when all instruments would be completed and initial science observations would commence.
     Refinement of telescope performance would be performed in the 3 years following in order to reach full
     system performance capability (Full Operational Capability).
                                                                                                   14




                           Table 1. History of Program Cost Projections

   Year of           Projected Budget for Initial              Projected Date for
  Projection           Program Development                Operational Readiness Review           Note
     1997                 $ 265 million                          September 2001                    1

     2000                    301 million                          December 2002                    1

     2003                    373 million                            March 2005                     1

     2008                    840 million*                          August 2011                     2
 Note 1: Based on SOFIA Independent Cost, Schedule, and Management Review of October 2004.
 Note 2: Dollar projection based on the NASA FY 2009 Budget Estimate; date is the Limited Operational
         Capability milestone.
 * Does not include $35 million for formulation.



As Table 1 shows, NASA projected in 1997 that the SOFIA Program would have a
$265 million budget and that operations would begin in September 2001. In 2000,
3 years later and just 1 year before the initial projected operation date, the cost and
schedule estimate was revised to increase the budget by $36 million (to $301 million) and
delay operations by one year (to 2002). In 2003, 1 year after the second projected
operation date, the budget estimated was increased by another $72 million and operations
were delayed another 3 years. The latest projection, in 2008, increased the budget by
$467 million (125 percent of the year 2003 budget) and delayed the schedule by another
6 years. This reflected an overall budget increase of $575 million (217 percent) and a
10-year schedule delay to begin limited operations.

The continuous upward trend of the SOFIA Program’s cost projections suggests that total
costs had been underestimated, and the schedule suffered comparably. In addition, we
did not find any detailed work package estimates that would substantiate the cost
estimates shown in Table 1, and there was no ICE performed to validate the total costs.
Considering the Program’s history of cost growth, total estimated costs have been an
unreliable cost baseline and would not provide meaningful comparison criteria of cost
performance.

Contractor Cost Control Evaluation Could Be Improved
We found that SOFIA Program management had two CPAF contracts that did not
comply with NFS 1816.405-274, “Award Fee Evaluation Factors.” Specifically, both
contracts did not include cost control as an award fee evaluation factor. Furthermore,
NASA did not clearly communicate to the contractors their cost control performance as
required by NFS 1842.15, “Contractor Performance Information.”

SOFIA Program management awarded two CPAF contracts that did not comply with
NFS requirements of evaluating contractors’ cost control performance. On
                                                                                                  15



September 15, 2006, SOFIA Program management awarded MPC Corporation (MPC) a
contract to support the aircraft’s Cavity Door Drive System (CDDS). On February 8,
2007, SOFIA Program management awarded L-3 a contract to modify the aircraft and
support the aircraft’s Mission Communications Control System. Both the CDDS and
Mission Communications Control System are essential to the success of the SOFIA
Program. Both tasks were on the Program’s critical path, which meant that any delay in
these two tasks would also delay the program and affect cost. The MPC contract value
was $6.8 million of which $547,000 was available for the award fee. The L-3 contract
value was $24.7 million of which $2.3 million was available for the award fee. As of
September 30, 2008, NASA had awarded approximately $357,000 in award fees to MPC
and $1 million to L-3.

NFS 1816.405-274 states:
            Evaluation factors will be developed by the contracting officer based upon the
            characteristics of an individual procurement. Normally, technical and schedule
            considerations will be included in all CPAF contracts as evaluation factors. Cost
            control shall be included as an evaluation factor in all CPAF contracts. When
            explicit evaluation factor weightings are used, cost control shall be no less than
            25 percent of the total weighted evaluation factors. [emphasis added] The
            predominant consideration of the cost control evaluation should be a measurement of
            the contractor's performance against the negotiated estimated cost of the contract.

A CPAF contract is intended to motivate excellent contractor performance in areas such
as quality, timeliness, technical ingenuity, and cost-effective management. Cost-effective
management is an essential part of contractor performance. The contractor's success in
controlling costs must be measured against contract-estimated costs, and not against
budgetary or operating plan costs. 13 SOFIA Program management justified the use of
CPAF to provide performance incentive for the contractors and to ensure expeditious
performance to avoid additional program delays. SOFIA Program management’s
justification and evaluation distribution were consistent with emphasizing schedule over
costs.

Lack of Explicit “Cost Control” Evaluation Factor. Both contracts’ Award Fee
Determination Plan had no cost control evaluation factor, which is expressly required by
NFS. As of August 2008, both MPC and L-3 contracts’ Award Fee Determination Plans
showed three evaluation factors: Schedule, Technical, and Business Management. For
both contracts, Schedule and Technical Performance were the most heavily weighted
evaluation factors—75 percent of the award fee pool. Business Management
performance carried 25 percent of the award fee pool.

The SOFIA Program Contracting Officer was aware of the NFS requirement that cost
control be an evaluation factor and asserted that cost control factors were adequately
captured within the Business Management evaluation factor. The contracting officer also


13
     Award Fee Contracting Guide, June 27, 2001, Section 3.6.3, “Scoring of Cost Control.”
                                                                                        16



indicated that increasing the cost control weights would decrease the Program’s emphasis
on Schedule and Technical evaluation factors.

We determined that some sub-criteria of the Business Management evaluation factor
were related to cost control. However, the weight of those sub-criteria did not add up to
the 25 percent requirement. Table 2 lists the Business Management evaluation factor
sub-criteria and the relative weight percentages of each.
                                                                                              17




            Table 2. Sub-Criteria for Business Management Evaluation Factor

                          Note 1                                      Note 2
No.         MPC Corporation              Weight                    L-3                  Weight

 1    Financial data shall be timely,   5 percent     Financial data shall be
      current, accurate, and                          timely, current, accurate, and
      complete.                                       complete.

 2    Cost incurrence notification is   2 percent     Cost incurrence notification
      timely.                                         is timely.

 3    Cost overruns are avoided or      3 percent     Cost overruns are avoided.
      minimized. MPC provides
      timely and detailed identifica-
      tion and notification to the
      contracting officer and
      contracting officer’s technical
      representative of cost risks
      and the potential for overruns.

 4    Supports and participates in      3 percent     Contract deliverables satisfy
      Program Earned Value                            requirements.
      Management System. Uses
      EVM to manage Require-                                                             Not
      ments, Schedule, and Budget                                                      Specified
      to produce a quality product.
      Reports EVM status as
      required by the contract.

 5    Provides an effective system      2 percent     Provides an effective system
      for assuring availability of                    for assuring availability of
      materials and parts.                            materials and parts.

 6    Coordination of activities and    4 percent     Meets Small Disadvantaged
      management of internal and                      Business subcontracting
      external changes that affect                    goals.
      the program.

 7    Ability to work to baseline.      6 percent     Proposals submitted are
      Timely identification and                       timely, current, accurate, and
      mitigation of risk to baseline                  complete.
      cost estimates. Strategizing
      on ways to maintain or lower
      costs.

 Total                                  25 percent                                     25 percent
Note 1: From MPC contract’s Award Fee Determination Plan, September 20, 2007.
Note 2: From L-3 contract’s Award Fee Determination Plan, July 23, 2007.
                                                                                                          18



For the MPC contract, we found that there were detailed evaluation worksheets for MPC
contract award fee periods 1 through 3. Those worksheets showed that the Business
Management evaluation factor was divided into three categories: Documentation, Cost
Control, and Contract Management. The Cost Control category consisted of Business
Management sub-criteria numbers 2, 3, and 7 (see Table 2). These three sub-criteria had
a total weight of 11 percent of the award fee pool, which was far less than the 25 percent
required by NFS.

We considered the L-3 contract’s Business Management sub-criteria 2 and 3 of the
Award Fee Determination Plan to be cost control related. However, there was no weight
assigned to any of the seven sub-criteria. Evaluation results showed that the score given
for the Business Management evaluation factor was a straight average of the sub-factors
evaluated. Thus, all seven sub-criteria carry equal weight. Therefore, sub-criteria 2 and
3 combined carried about 7 percent weight, which was less than the 25 percent
requirement specified by NFS.

Ineffective Cost Control. By assigning less than the minimum 25 percent weight as
required by NFS, we concluded that Program management had significantly
deemphasized the importance of cost control and negated its effectiveness.

The MPC contract had 11 percent of the total weight allotted to cost control, which gave
minimum incentive for the contractor to control cost because a poor cost control
performance rating can easily be offset by two or three other non-cost control factors.
For example, as long as MPC met schedule milestones (which carried a 40 percent
weight or about 4 times cost control weight), that would negate any poor cost control
performance. Similarly, the L-3 contract had 7 percent of the total weight allotted to cost
control, which was a small fraction (about one-fourth) of the 25 percent requirement. In
this case, not only meeting schedule would negate any poor cost control performance,
poor cost control performance could just as easily be offset by meeting Small
Disadvantage Business subcontracting goals, and submitting timely, current, accurate,
and complete proposals.

The low percentage weighting deemphasized the importance of controlling cost,
minimized the effectiveness of cost control, and gave the contractors minimal incentive
to do so. As a result, Program management did not adhere to NFS requirements and
$49,957 (14 percent) of MPC’s award fee and $183,643 (18 percent) of L-3’s award fee
represented an ineffective use of Government funds (see Table 3). Further, if Program
Management does not change the Award Fee Determination Plan evaluation criteria to
meet the 25 percent cost control requirement, future award fees 14 could be awarded
without appropriate emphasis on cost control.



14
     As of September 30, 2008, a total award fee of $149,138 and $1,102,348 was available to MPC and L-3
     respectively for the remaining evaluation periods (one period remaining for MPC and two for L-3) of the
     contracts.
                                                                                                  19




                              Table 3. Summary of Paid Award Fees

   Award                                                                           Award Fee Paid
    Fee       Available       Performance        Paid         Unaccounted       Not in Compliance with
   Period     Award Fee        Evaluation      Award Fee      Cost Factor         NFS Requirement
                                            MPC Corporation
  Period 1     $124,363        90 percent        $111,927       14 percent              $15,670

  Period 2       124,363       95 percent         118,145       14 percent               16,540

  Period 3       149,137       85 percent         126,766       14 percent               17,747

   Subtotal    $397,863                          $356,838                              $49,957
                                  L-3 Communications Corporation
  Period 1    $ 649,614        79 percent      $ 513,196        18 percent            $ 92,375

  Period 2       551,135       92 percent         507,044       18 percent               91,268

   Subtotal   $1,200,749                       $1,020,240                             $183,643

    Total     $1,598,612                       $1,377,078                             $233,600



Cost Control Performance Was Not Communicated. The Performance Evaluation
Board (PEB) finding memorandum did not specifically communicate cost control
performance. Per NFS 1842.1501, “Communication with contractors are vital to
improved performance and this is NASA’s primary objective in evaluating past
performance.” In the case of the MPC contract, which included “Cost Control” as one of
the contract’s evaluating categories under “Business Management Criteria,” none of the
PEB findings referenced cost control. The finding memorandum’s narratives were too
broad to determine whether the criteria met the desired outcomes relating to cost. For
example, under the PEB findings for MPC’s Award Fee Period 2, the contractor received
a rating of “Excellent” and a score of 99.2 percent for Business Management. There was
no mention of cost control or positive factors leading to cost mitigation. The PEB finding
for Business Management stated:
       Overall, MPC’s program and business management for the SOFIA CDDS contract
       has been highly professional, motivated, responsive, and of excellent quality. Again
       MPC’s willingness to work closely with its NASA counterparts and its
       responsiveness to requests from the COTR [contracting officer’s technical
       representative] and Contracting Officer has been excellent.

We also found that the SOFIA Program contracting officer informed contractors of their
award fee determinations by sending letters and attaching their respective PEB finding
memorandum for the award fee period. However, neither the cover letter nor the PEB
finding memorandum gave the contractors any feedback on their cost control
                                                                                       20



performance. Consequently, the scores given and the award fee paid to the contractor
may not accurately reflect whether the contractor had prudently managed cost while
meeting contract requirements. Without indicating areas of emphasis or evaluating cost
control performance against desired outcomes, NASA had no assurance that the
contractor would be motivated to ensure that cost control objectives were being met.

Recommendations, Management’s Response, and Evaluation of
 Management’s Response
Recommendation 1. We recommended that the Assistant Administrator for the Office
of Infrastructure and the Director, Dryden Flight Research Center, finalize the agreement
to transfer the two Shuttle Carrier Aircraft after the Shuttle Program retirement.

   Management’s Response. The Associate Administrator for the Science Mission
   Directorate concurred with the intent of the recommendation, stating that the Office
   of Infrastructure will coordinate the request to transfer the aircraft with the other
   NASA stakeholders and, if the transfer is delayed or not approved, the SOFIA
   Program would purchase one or more additional 747SP airframes for spare parts as a
   back-up plan.

   Evaluation of Management’s Response. Management’s planned action is
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s corrective action.

Recommendation 2.a. We recommended that the SOFIA Program Manager complete
the logistics plan, to include the development of alternative spare parts plans based on
various potential retirement dates of the Space Shuttle Program, and maintenance plan in
a timely manner.

   Management’s Response. The Associate Administrator concurred, stating that the
   logistics plan is expected to be completed in the 4th quarter of 2009 and the updated
   maintenance plan by September 2009.

   Evaluation of Management’s Response. Management’s planned action is
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s corrective action.

Recommendation 2.b. We recommended that the SOFIA Program Manager fully
implement the Earned Value Management System in compliance with NPR 7120.5D.

   Management’s Response. The Associate Administrator partially concurred with the
   recommendation, inviting further discussion to better understand the concerns raised
   in the report and discuss the implementation of EVMS. The Associate Administrator
   stated that he believed that SOFIA Program management complied with NPR
   7120.5D and that the principles of EVM were implemented at the program level
   relative to program milestones in the form of monthly reports of milestones
                                                                                     21



accomplished versus the planned milestone and the cost of those milestones versus
the planned cost. He stated that these comparisons, together with the integrated
master schedule of major program and project milestones, provided insight into
program performance regardless of who (NASA or DLR) performed specific
activities. The Associate Administrator asserted that the approach was consistent
with the participating Center’s best practices as required in NPR 7120.5D.

Evaluation of Management’s Response. Management’s comments are partially
responsive. The principle of EVM begins with the itemization of the project to finite
work packages and continues with identifying the resources required to complete the
individual packages, integrating resource requirements with schedule, monitoring
progress by the summation of the packages, and analyzing the variances. SOFIA
Program management demonstrated that understanding when the SOFIA Program
Plan was developed. Section 3.1 of the Plan, “Technical, Schedule, and Cost Control
Plan,” states that the primary tool being employed to control cost performance on the
program is EVM. The Plan includes a description of EVM procedures: “[c]ontrol
accounts are established based on the WBS [work breakdown structure] and
management structure of the program. Each control account has an assigned Control
Account Manager (CAM) starting with the Program Manager at the program level
and flowing down through both projects and their supporting tasks/work packages
and related activities.” Further, the Plan states that each CAM is responsible for
establishing in the Integrated Master Schedule the resources for their respective
accounts. The Integrated Master Schedule forms the Program’s performance
baseline. The Plan also established that this baseline would be the “budgeted cost of
work scheduled.” We disagree with SOFIA Program management’s assessment that
monitoring cost at the Program’s top level without integrating cost and schedule at
the work package level meets the principle of EVM as described in the Program Plan
or its intended purpose of being a cost control mechanism.

The Associate Administrator also asserted that SOFIA Program management
complied with NPR 7120.5D by implementing an approach that is consistent with the
Center’s best practice. Although NPR 7120.5D (paragraph 3.1.c of Appendix F)
states that the project’s EVM approach should be consistent with the participating
Center’s best practices, it also includes the following requirements:

   •   The project’s EVM approach be in place by Key Decision Point (KDP) C
       (implementation phase) and implemented in Phase C through KDP E (the start
       of the operational phase).

   •   Project EVM reporting begin within 60 days after the start of Phase C.

   •   As a minimum, EVM principles, as defined by ANSI/EIA-748, apply from
       KDP C through KDP E, if the project’s life-cycle cost is at or greater than
       $20 million.
                                                                                       22



       •   If the project’s primary NASA Center has a fully validated EVMS, the project
           must use that system rather than EVM principles.

   Because Dryden does not have a fully validated EVMS and SOFIA Program
   management’s system has not fully implemented the EVM principles as defined by
   ANSI/EIA-748, we maintain that the system is not in compliance with NPR 7120.5D,
   and this recommendation remains unresolved.

   We will work with Program management to facilitate resolution of this
   recommendation. We request that the Associate Administrator reconsider his
   position and provide additional comments on the final memorandum.

Recommendation 3. We recommended that the Agency Program Management Council
request an independent cost estimate to validate the SOFIA Program budget and life-
cycle cost estimates.

   Management’s Response. The Associate Administrator for the Science Mission
   Directorate concurred and stated that an ICE is planned to be performed as part of the
   Standing Review Board work in early 2010.

   Evaluation of Management’s Response. Management’s planned action is
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s corrective action.

Recommendation 4.a. We recommended that SOFIA Program management coordinate
with the SOFIA Program Contracting Officer to review and modify (if required) all cost-
plus-award-fee contracts to ensure Award Fee Determination Plans explicitly reflect cost
control as an evaluation factor with an evaluation weight no less than 25 percent of the
total weighted evaluation factors.

   Management’s Response. The Associate Administrator partially concurred, stating
   that the Program will modify the two CPAF contracts to comply with regulations. He
   also requested clarification on our implication that the Program overpaid award fees
   by $233,600.

   Evaluation of Management’s Response. Management’s planned action is
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s corrective action. There was no implication of an
   overpayment intended. Because cost control accounted for less than 25 percent the
   total weighted evaluation factors in the Award Fee Determination Plans, we
   calculated that $233,600 of the $1,377,078 total award fee paid was not in compliance
   with NFS requirements. Had cost control accounted for the required 25 percent of the
   total weighted evaluation factors, the contractors could have earned more or less than
   the actual award fee paid.
                                                                                        23



Recommendation 4.b. We recommended that SOFIA Program management coordinate
with the SOFIA Program Contracting Officer to ensure that contractor cost control
performance is explicitly communicated in future evaluations.

   Management’s Response. The Associate Administrator did not specifically address
   this recommendation.

   Evaluation of Management’s Response. We request that the Associate
   Administrator provide specific comments on this recommendation.

We request that the Associate Administrator for the Science Mission Directorate provide
additional comments on Recommendation 2.b in response to this final memorandum.
The additional comments should reevaluate SOFIA Program management’s
implementation of EVMS in respect to compliance with NPR 7120.5D requirements. In
addition, we request a specific response to Recommendation 4.b, that contractor cost
control performance is explicitly communicated in future contractor evaluations. We
request that management provide the additional comments by April 30, 2009.

We appreciate the courtesies extended during our audit. If you have any questions, or
need additional information, please contact Mr. Raymond Tolomeo, Science and
Aeronautics Research Director, Office of Audits, at 202-358-7227.


   signed
Evelyn R. Klemstine

2 Enclosures

cc:
SOFIA Program Executive
SOFIA Program Manager
                              Scope and Methodology
We performed this audit from April 2008 through February 2009 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on the audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

We performed this audit at NASA Headquarters, Ames Research Center, and Dryden
Flight Research Center. We reviewed Federal Acquisition Regulations (FAR) 16.305 ,
NASA FAR Supplement 1816.405, American National Standards Institute/Electronic
Industries Alliance ANSI/EIA-748-B, NASA Policy Directive (NPD) 8730.5,
NPD 8730.2B, NPR 8000.4, NPR 7120.5D, NPR 7500.1B, and NPR 5900.1.

We held meetings with SOFIA Program personnel to gain an understanding of the
Program’s management and operational structure. We reviewed Program documents and
the Memorandum of Understanding between NASA and DLR to identify program goals,
roles, and responsibilities. We reviewed the monthly and quarterly status review
presentations and network diagram to track progress status.

We analyzed the Independent Cost, Schedule, and Management Review and the
presentation provided to NASA management by SORT. We also interviewed NASA
officials involved with these reviews to gain an understanding of prior program
management and organizational structure issues and problems.

Relative to potential schedule delays attributed to product defects and delivery delays, we
conducted follow-up inquiries and reviewed supporting documents pertaining to risk
assessment and the quality control process.

To ensure that previously identified problems were being adequately addressed by
Program management, we reviewed the Program’s quality control structure and
in-process quality control plans, as well as reviewed visit reports. To determine whether
Program management had adequately implemented a process to limit further cost growths
and schedule delays, we reviewed the program cost and schedule control process. We
reviewed logistics and maintenance plans’ spare parts requirements and acquisition
strategies. We also reviewed the SOFIA Program’s risk management process and
assessed its compliance with NPR 8000.4.

We reviewed contracts and supporting documentation related to NASA’s contracts with
L-3 Communications and MPC Corporation to analyze the award fee plans. Specifically,
we reviewed the contracts files, award fee documents, and fee determination plans to
determine whether the award fee plans established adequate criteria for evaluating
contractor performance and had been properly executed to achieve their desired
outcomes.


                                                                               Enclosure 1
                                                                               Page 1 of 2
Computer-Processed Data. We did not use computer-processed data to perform this
audit.

Review of Internal Controls. We reviewed and evaluated internal controls associated
with program cost and schedule controls. We also reviewed internal controls associated
with the contract management. We identified control weaknesses in monitoring the cost
and schedule and in evaluating the award fees for the CPAF contracts.

Prior Coverage. During the last 5 years, the Government Accountability Office (GAO)
has issued two reports of particular relevance to the subject of this report. Unrestricted
reports can be accessed over the Internet at http://www.gao.gov.

“NASA: Implementing a Knowledge-Based Acquisition Framework Could Lead to
Better Investment Decisions and Project Outcomes” (GAO-06-218, December 21, 2005).

“NASA: Lack of Disciplined Cost-Estimating Processes Hinders Effective Program
Management” (GAO-04-642, May 28, 2004).




                                                                               Enclosure 1
                                                                               Page 2 of 2
Management’s Comments




                        Enclosure 2
                        Page 1 of 5
Enclosure 2
Page 2 of 5
Enclosure 2
Page 3 of 5
Enclosure 2
Page 4 of 5
              Revised




Enclosure 2
Page 5 of 5
